No. 20-605
IN THE

Supreme Court of the United States
KIERNAN J. WHOLEAN,
JAMES A. GRILLO,
Petitioners,
v.
CSEA SEIU LOCAL 2001,
Respondent.
On Petition for Writ of Certiorari to the United States
Court of Appeals for the Second Circuit
CERTIFICATE OF SERVICE
I, Milton L. Chappell, a member of the bar of this Court, certify that on March
4, 2021, I emailed a copy of the Reply to Briefs in Opposition and accompanying
certificates of compliance and service in the above titled matter to all parties required
to be served, who are listed below and who consented to electronic service only,
pursuant to this Court’s order of April 15, 2020:
Clare Kindall
Solicitor General
Office of the Attorney General
165 Capitol Ave
Hartford, CT 06106
(860)-808-5261
Clare.Kindall@ct.gov

William Tong
Connecticut Attorney General
Office of the Attorney General
165 Capitol Ave
Hartford, CT 06106
(860) 808-5318
attorney.general@ct.gov

P. Casey Pitts
Altshuler Berzon LLP
177 Post Street, Suite 300
San Francisco, CA 9410
(415) 421-7151
cpitts@altaber.com

Scott Kronland
Altshuler Berzon LLP
177 Post Street, Suite 300
San Francisco, CA 9410
(415) 421-7151
skronland@altber.com

1

Dan Livingston
Livingston, Adler, Pulda, Meiklejohn &
Kelly PC
557 Prospect Ave.
Hartford, CT 06105-2922
(860) 233-9821
delivingston@lapm.org
Dated: March 4, 2021.
/s/ Milton L. Chappell
Milton L. Chappell
Counsel of Record
c/o National Right to Work Legal Defense
Foundation, Inc.
8001 Braddock Road, Suite 600
Springfield, VA 22160
(703) 321-8510
mlc@nrtw.org
Counsel for Petitioners

2

